V-

27

C3

ORIGINAL

IN THE

Supreme Court of the United States

FILED
DEC 0 "i 2020

Clarence B. Jenkins Jr.,
Petitioner,
v.

South Carolina Department of Employment Workforce,
South Carolina Budget and Control Board and Office
Of South Carolina Governor
Respondents,
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the federal circuit
PETITION FOR A WRIT OF CERTIORARI
Clarence B. Jenkins Jr.
945 Wire Rd.
Neeses, South Carolina 29107
(803)263-4514

Upscale81@vahoo.com
Pro Se Petitioner
Counsel ofRecord

,

RECEIVED
OCT 1 5 2020

magasasg.
■>

QUESTIONS PRESENTED
The United States of America in 1964 decided that it is was unlawful to discriminate
against another human being because of color of their skin by denying basic rights to life
and liberty with the Title VII of the Civil Rights Act of 1964 and Civil Rights Act of
1991. Discrimination Laws were used to abused and harass a certain race of people
specifically black citizens by establishing the white people as superior that violated their
rights under U.S. Constitution. Institutional Racism has lead to discrimination of
Systemic Racism therefore have been the arm that prevent all mankind from obtaining
the rights of afforded by U.S. Constitution where every person is treated equally.
The Question Presented is:
(1). Define the purpose of the Title VII of the Civil Rights Act of 1964 and Civil Rights
Act of 1991. (2). Did the false application of NEPOTISM and Barred From Applying
intentionally applied by South Carolina Department of Employment Workforce violated
the Title VII of the Civil Rights Act of 1964 and Civil Rights Act of 1991.

11

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

APPENDIX

iii

TABLE OF AUTHORITIES

IV

PETITION FOR A WRIT OF CERTIORARI

1

JURISDICTION

1

STATEMENT

1

REASONS FOR GRANTING THE WRIT

2

I. Define the purpose of the Title VII of the Civil Rights
Act of 1964
and Civil Rights Act of 1991.
II. Did the false application of NEPOTISM and
Barred From Applying intentionally applied by
South Carolina Department of Employment Workforce
violated Title VII of the Civil Rights Act of 1964 and
Civil Rights Act of 1991.

CONCLUSION

5

APPENDIX

la

APPENDIX A, Submitted Evidence

la

APPENDIX B, Informal Brief and Supplemental
Evidence Obtained in 2019........

5a

APPENDIX C, 2019 Court of Appeals ABEYANCE... 23 a
APPENDIX D, Court of Appeals Decision

24a

APPENDIX E, New Discovery Evidence

27a

Ill

la

APPENDIX
APPENDIX A, Submitted Evidence

la

APPENDIX B, Informal Brief and Supplemental
Evidence Obtained in 2019.......

5a

APPENDIX C, 2019 Court of Appeals ABEYANCE... 23a
APPENDIX D, Court of Appeals Decision

24a

APPENDIX E, New Discovery Evidence

27a

,0

A

IV

TABLE OF AUTHORITIES
CASES
EEOC v. Jacksonville Plumbers and Pipefitters
Joint Apprenticeship and Training
Case No. 3:19-cv-862-J-32JRK (2020)................
EEOC v. Diversified Maintenance Systems, LLC,
Case No. 8:17-cv-0185 (2019)............................
EEOC v. Bass Pro Outdoor World LLC,
Case No. 4:ll-cv-03425 (2017)..........................

2
2
2

CONSTITUTION and STATUES
14th Amendment of The U.S. Constitution
Title VII of the Civil Rights Act of 1964..
The Civil Rights Act of 1991..................
28U.S.C. 1254(1)..................................

.2,3.4.5
1.3.4.5
2.3.4.5
1

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully seeks a writ of certiorari
To review the judgment of the Unites States Court of
Appeals for the Federal Circuit.
JURISDICTION
The Federal Circuit entered judgment on August 10,2020.
Pro Se Petitioner is making this direct appeal the COURT. The
COURT has jurisdiction under 28 U.S.C 1254(1)
STATEMENT
It is illegal to discriminate against any citizen of the United States by denying access to
all the privileges and rights allowed under the U.S. Constitution. The practice of unfair
laws such as Jim Crow were used to deny access to education, threatening, abused,
created white economic social class of superiority to oppress certain races of people and
even killed many to maintain that standard of discrimination. It was not because having
no desire or potential but to maintain WHITE PRIVILEGE that only white people was
worthy of. The federal government has written and instituted laws to protect all citizens
from the abuse of discrimination, systemic racism and institutional racism that has been
used to harmed and caused deprivation for certain races of people based on the color of
their skin, nationality, economic status, religion and disability especially the black race.
The federal laws of anti-discrimination was used as a roadmap for the individual states of
the United States to create their own laws to against racism because it violated the U.S.
Constitution to create a fair and just society. Discrimination was not only seen in white
people but the institutions created by them to maintain that standard of WHITE
PRIVILEGE which exist today in many of them which includes the COURTS. In the past
several years with the killings of young black males it has become more evident of
discrimination, systemic racism and institutional racism still exists. And with the killings
of Trayvon Martin, Philando Castille, Eric Gardner, Sandra Bland, George Floyd,
Breonna Taylor and many more has exposed a broken system of injustice that includes
the COURTS. And it has caused White America and White Privilege to confront the
abuse that many blacks has known to suffered and cried about at the hand of Institutional
Racism. The violation of anti-discrimination laws by agencies of local government and
the practice of discrimination did not foster an environment where the best of mankind
could be seen and potential of great ideals explore where every person is valued. Title
VII of the Civil Rights Act of 1964: Makes it illegal to discriminate against someone on
the basis of race, religion, national origin or sex. The law protect employees against

2

retaliation for going forward with a claim regarding discrimination in the workplace. The
Civil Rights Act of 1961, which, among other things, provides monetary damages in
cases of intentional employment discrimination. Discriminatory Practices such as hiring
and firing; job advertisement, classification of employees and recruitment are prohibited
by federal and state laws. The COURT has stood against discrimination and retaliation as
seen in EEOC v. Jacksonville Plumbers and Pipefitters Joint Apprenticeship and Training
Case No. 3:18-cv-862-J-32 JRK (2020), EEOC v. Diversified Maintenance Systems,
LLC, Case No. 8:17-cv-01835 (2019) and EEOC v. Bass Pro Outdoor World LLC, Case
No. 4:ll-cv-03425 (2017).
REASONS FOR GRANTING THE WRIT
This is a straightforward Certiorari Candidate as any case be because
issues involving the evidence, facts and laws. It is of significant importance that the
COURT stand up for the law an opportunity for mankind to have a redress against
Defendant and further harm by lower courts to properly apply the evidence, facts and
law. The U.S. Fourth Circuit Court of Appeals got it wrong in their RULING by not
considering all the arguments and facts presented by Pro Se Petitioner. The lower courts
has been found to be institutions of systemic racism therefore the RULING by U.S.
Fourth Circuit Court of Appeals and U.S. District Court, Columbia Division falls on that
ground. The federal courts has always been known to apply the laws without being
biased, prejudice and political favors owed. And if this COURT neglect justice to one
then it neglect justice to all whether unseen or unheard and never written. The U.S.
Constitution guarantees every American Citizen DUE PROCESS under the 14th
Amendment which was not provided. U.S. Fourth Circuit Court of Appeals has stated in
their RULING that Pro Se Petitioner did not make the argument of Judicial Misconduct
in Informal Brief which is an egregious error of the facts. U.S. Fourth Circuit Court of
Appeals has stated in their RULING that arguments of Judicial Misconduct were
submitted in Petitioner’s Reply Brief which is an egregious error of the facts. Pro Se
Petitioner presented arguments of Failure of Due Process, Magistrate Judge, Paige J.
Gossett is Unfit for Office, Judge Paige J. Gossett and Defendants engaged in Ex-parte
Communication, Defendants conspired to concealed the events surrounding “Barred from
Applying” and Reconsideration in Informal Brief to U.S. Fourth Circuit Court of
Appeals. The ORDER of the U.S. Fourth Circuit Court of Appeals Pro Se Petitioner did
not received DUE PROCESS according to the facts, evidence, documents and the law
before the COURT. The records of Informal Brief presented to COURT does not
comport with RULING by the U.S. Fourth Circuit Court of Appeals. And because an
errant RUING by U.S. Fourth Circuit Court of Appeals therefore Pro Se Petitioner has
requested that Patricia Connor, Clerk of Court on September 22, 2020 by certified mail
to certify the records of the Informal Brief that were presented to the COURT because of
an errant RULING. Pro Se Petitioner has not received a response from Patricia Connor,
Clerk of Court for U.S. Fourth Circuit Court of Appeals at the time of mailing. Fourth

3

Circuit Court of Appeals placed case no. 19-2037 into ABEYANCE until a ruling in Bing
vs. Brivo Systems. Case No. 19-2037 was not decided on its own merits but on a PRE­
JUDICIAL RULING in Bing vs. Brivo Systems LLC which had different set of facts and
that is egregious errors of Judicial Misconduct of the COURT.

THE COURT FABLED TO CONSIDERED THE EVIDENCE OF RECORD
Pro Se Petitioner submitted evidence to verify Defendants was engaged in intentional
employment discrimination and retaliation. Adrienne Sorenson of SCDEW(herein after
SCDEW) applied “Barred From Applying” from July 19, 2103 to expired on December
30, 2018 to deny Pro Se Petitioner from obtaining employment within the state of South
Carolina. SCDEW sought to declared that Barred from Applying” was a system error
after Pro Se Petitioner informed them of such actions after being directly rejected for
employment because of the bar. NEOGOV, the software provider stated in written
communications that “Barred From Applying” was not a system error but a feature of the
product. Pro Se Petitioner systemic racism and institution racism from State of South
Carolina Government Agencies and the COURTS by denying the facts and evidence
therefore a failure of DUE PROCESS. It is illegal under the Title VII Civil Rights Act of
1964 and Civil Rights Act of 1991 to discriminate and retaliate to classify applicant to
deny employment. And “Barred From Applying” was an illegal and false classification
against Pro Se Petitioner.
THE COURT FAILURE TO CONSIDERED
NEW EVIDENCE OBTAINED IN 2019
Pro Se Petitioner submitted written documents with Informal Brief to U.S. Fourth Circuit
Court of Appeals. NEOGOV, which provided the employment software to South
Carolina Department of Employment Workforce(herein after SCDEW) has stated by
email communication that “Barred From Applying” is not a system error but a feature of
the product. NEOGOV has stated that “Barred From Applying” is used to flag an
applicant to prevent employment which is activated by the users of their product.
NEOGOV has stated that authorized users of product under SCDEW will received
notification that applicant is barred. NEOGOV has confirmed that it does not control
how the barred feature is used by their customers personnel and they have no input.
NEOGOV has confirmed that “Barred From Applying” has to be manually enabled by
users. NEOGOV has confirmed that system is run by users and only they can explain why
the barred feature was applied. A false classification of NEPOTISM was applied by
SCDEW to prevent employment within the state of South Carolina because it is illegal to
do so. SCDEW stated that NEOGOV applied that false classification of NEPOTISM to
avoid being held accountable for illegal employment discrimination and retaliation.
NEOGOV has confirmed by email that it is not involved in how the users decide to

4

utilize their products and therefore rejecting claims of responsibility fabricated by the
state agencies of South Carolina when applying “Barred From Applying and
NEPOTISM44 to prevent employment.
PRO SE PETITIONER SUBMITTING NEW EVIDENCE OBTAINED
IN 2020 TO ESTABLISHED ADDITIONAL GROUNDS FOR REMAND
Pro Se Petitioner received a written response by email from Kelly Coakley on January
28,2020 stating that NEPOTISM was applied to applicant master profile automatically
by system which is a false classification. NEOGOV has stated users has totally control
on how their system is used and reject any claims of responsibility. “NEPOTISM” is
special notation on applicant master profile therefore it has to be manually applied by
users of product and not an automatic application therefore SCDEW falsely applied the
illegal discrimination stipulation to prevent employment that would caused intentionally
harm and deprivation. Pro Se Plaintiff has never been involved with NEPOTISM as
claimed by the state of South Carolina. The State of South Carolina Government
Agencies sought to discriminate ad retaliate because of a complaint filed with U.S. Equal
Employment Opportunity Commission for Civil Rights Violations. The State of South
Carolina Government Agencies has refused to answer when NEPOTISM was applied,
who applied NEPOTISM, when NEPOTISM was removed and who removed
NEPOTISM. Pro Se Petitioner does not have any knowledge of when NEPOTISM was
removed because of corrupt activities to deny pertinent information. The State of South
Carolina Government Agencies sought to deny, refused accept responsibility, attempted
to falsely blamed NEOGOV and participated in a conspiracy to cover up Civil Rights
Violations. See document
I. Define the purpose of the Title VII Of The Civil
Rights Act of 1964 and Civil Rights Act of 1991.
Title VII prohibits employment discrimination based on race, color, religion, sex and
national origin. In an action brought by complaining party under 706 or 717 of the Civil
Rights Act of 1964(42 U.S.C. 2000e-5) against a respondent who engaged in unlawful
intentional discrimination allows for the complaining party to recover compensatory and
punitive damages.

5

EL Did the false application of NEPOTISM and
Barred From Applying intentionally applied by
South Carolina Department of Employment Workforce
violated the Title VII Civil Rights Act of 1964
and Civil Rights Act of 1991
Pro Se Petitioner brought this discrimination complaint against the State of South
Carolina Government Agencies for Civil Rights Violation of Title of VH of 1964 Civil
Rights Act and Civil Rights Act of 1991. South Carolina Department of Employment
Workforce(herein SCDEW) has the responsibility of a state government agencies to
provide resources and employment opportunities sought to deny that access by constantly
rejecting applications for employment when well qualified for position up to fifteen in
single day; applied a false classification of NEPOTISM to applicant master profile to
intentionally caused harm and applied an illegal stipulation of “Barred From Applying”
from July 19, 2013 to expired on December 30, 2018 without notification. SCDEW did
not have any justification for applying “Barred from Applying” due to having the
required education, professional work experience and excellent work performance
therefore when confronted about the bar by Pro Se Petitioner then it was declared a
system error. SCDEW along with other State of South Carolina Government Agencies
sought to deny responsibility by placing blame on NEOGOV. NEOGOV has
emphatically stated to Pro Se Petitioner in writing by email that users of their product has
full control of how it is used and not them. NEOGOV has stated that “Barred From
Applying” is not a system error but a feature of their product. SCDEW intentionally
applied “Barred From Applying” to caused harm. NEOGOV has stated in writing that it
did not apply the false classification of NEPOTISM to Pro Se Petitioner applicant master
profile. SCDEW and other State of South Carolina Government Agencies intentionally
applied NEPOTISM and Barred From Applying as false classification to harm Pro Se
Petitioner in his effort to obtain employment. The Discriminations Laws are very clear
therefore I am appealing to U.S. Supreme Court to apply the evidence, facts and the law
as intended under the 14th Amendment of the U.S. Constitution requiring DUE
PROCESS. I am declaring that DUE PROCESS has not been rendered in the case
against the State of South Carolina Government Agencies. Pro Se Petitioner is requesting
a review by U.S. Supreme Court seeking a REVERSE and REMAND.
CONCLUSION
The COURT should grant Certiorari.

6

Respectfully submitted,

ef

7

Clarence B. Jenkins Jr.
945 Wire Rd.
Neeses, South Carolina 29107
(803)263-4514
Unscale81 @vahoo, com
Pro Se Petitioner
Counsel ofRecord

